<html>
<title> - DEFENDING THE U.S. ELECTRIC GRID AGAINST CYBER THREATS</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                    DEFENDING THE U.S. ELECTRIC GRID
                         AGAINST CYBER THREATS

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 OF THE

                   COMMITTEE ON OVERSIGHT AND REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 27, 2021

                               __________

                           Serial No. 117-36

                               __________

      Printed for the use of the Committee on Oversight and Reform

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                       Available at: govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov
                             
                                __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
45-371 PDF                 WASHINGTON : 2021                     
          
-----------------------------------------------------------------------------------                                
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Stephen F. Lynch, Massachusetts      Jim Jordan, Ohio
Jim Cooper, Tennessee                Paul A. Gosar, Arizona
Gerald E. Connolly, Virginia         Virginia Foxx, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Alexandria Ocasio-Cortez, New York   Clay Higgins, Louisiana
Rashida Tlaib, Michigan              Ralph Norman, South Carolina
Katie Porter, California             Pete Sessions, Texas
Cori Bush, Missouri                  Fred Keller, Pennsylvania
Danny K. Davis, Illinois             Andy Biggs, Arizona
Debbie Wasserman Schultz, Florida    Andrew Clyde, Georgia
Peter Welch, Vermont                 Nancy Mace, South Carolina
Henry C. ``Hank'' Johnson, Jr.,      Scott Franklin, Florida
    Georgia                          Jake LaTurner, Kansas
John P. Sarbanes, Maryland           Pat Fallon, Texas
Jackie Speier, California            Yvette Herrell, New Mexico
Robin L. Kelly, Illinois             Byron Donalds, Florida
Brenda L. Lawrence, Michigan
Mark DeSaulnier, California
Jimmy Gomez, California
Ayanna Pressley, Massachusetts
Mike Quigley, Illinois

                      Russ Anello, Staff Director
                Dan Rebnord, Subcommittee Staff Director
                    Amy Stratton, Deputy Chief Clerk

                      Contact Number: 202-225-5051

                  Mark Marin, Minority Staff Director
                                 ------                                

                   Subcommittee on National Security

               Stephen F. Lynch, Massachusetts, Chairman
Peter Welch, Vermont                 Glenn Grothman, Wisconsin, Ranking 
Henry C. ``Hank'' Johnson, Jr.,          Minority Member
    Georgia                          Paul A. Gosar, Arizona
Mark DeSaulnier, California          Virginia Foxx, North Carolina
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Debbie Wasserman Schultz, Florida    Clay Higgins, Louisiana
Jackie Speier, California
                         
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on July 27, 2021....................................     1

                               Witnesses

Mr. Puesh M. Kumar, Acting Principal Deputy Assistant Secretary, 
  Office of Cybersecurity, Energy Security, and Emergency 
  Response Department of Energy
Oral Statement...................................................     4
Mr. Eric Goldstein, Executive Assistant Director for 
  Cybersecurity, Cybersecurity and Infrastructure Security 
  Agency, Department of Homeland Security
Oral Statement...................................................     6
Mr. Joseph H. McClelland, Director, Office of Energy 
  Infrastructure Security, Federal Energy Regulatory Commission
Oral Statement...................................................     8

Written opening statements and statements for the witnesses are 
  available on the U.S. House of Representatives Document 
  Repository at: docs.house.gov.

                           Index of Documents

                              ----------                              

  * Statement for the Record by the American Public Power 
  Association and the National Rural Electric Cooperative 
  Association; submitted by Rep. Lynch.

  * Questions for the Record: to Mr. Kumar; submitted by Rep. 
  Lynch. (No response)


The documents are available at: docs.house.gov.

 
                    DEFENDING THE U.S. ELECTRIC GRID
                         AGAINST CYBER THREATS

                              ----------                              


                         Tuesday, July 27, 2021

                   House of Representatives
          Subcommittee on National Security
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 3:11 p.m., in 
room 2154, Rayburn House Office Building, Hon. Stephen F. Lynch 
(chairman of the subcommittee) presiding.
    Present: Representatives Lynch, Welch, Johnson, DeSaulnier, 
Wasserman Schultz, Speier, Langevin, Grothman, Gosar, and 
Comer.
    Also present: Representative Langevin.
    Mr. Lynch. This committee will now come to order. Without 
objection, the chair is authorized to declare a recess of the 
committee at any time. I now recognize myself for an opening 
statement.
    Good afternoon, everyone. Before we begin, I would like to 
thank each of our witnesses for testifying before our 
subcommittee today. I would also like to thank my colleagues 
who are participating at today's hearing, both remotely and in 
person.
    If you listened to the news over this past year, there's a 
good chance that you have heard about one of many cyber attacks 
that have targeted a high-profile technology company, research 
institution, energy pipeline, or even the Federal Government. 
Today, we will examine how this latest uptick in hacking 
attempts could affect the vital component of our critical 
infrastructure, and even U.S. national security, and that is 
the vulnerability of our electrical grid.
    The electrical grid is the backbone of daily life here in 
America. It provides energy to heat our homes, power our 
hospitals, and charge our smartphones. It also is a priority 
target for state and non-state cyber adversaries. A successful 
attack on the electrical grid could have devastating 
consequences on U.S. national security and our economic 
interests.
    Last month, Secretary of Energy, Jennifer Granholm, 
confirmed that cyber adversaries have the tools and 
capabilities necessary to shut down our electrical grid.
    In a recent statement, the Department of Energy warned, and 
this is a quote, ``The United States faces a well-documented 
and increasing cyber threat from malicious actors seeking to 
disrupt the electricity that Americans rely on to power our 
homes and businesses every day.'' In response, President Biden 
has taken decisive meaningful action since assuming office to 
strengthen our national cyber defense and protect our critical 
infrastructure.
    For example, in April, President Biden announced a 100-day 
plan led by the Department of Energy and the Cybersecurity and 
Infrastructure Security Agency, CISA, to strengthen the 
security and resilience of U.S.--of the U.S. electrical grid. 
And in May, President Biden issued an executive order that will 
modernize our national cybersecurity defenses and improve 
information-sharing between the U.S. Government and private 
sector, which is ultimately responsible for operating and 
securing the electrical grid.
    I want to applaud and I am grateful to President Biden for 
recognizing the urgency of this threat; however, significant 
vulnerabilities continue to persist. And the Biden 
administration should consider whether additional regulations 
or policy initiatives are needed to strengthen the cyber 
defense and resiliency of our electrical grid. For example, as 
a growing number of network consumer devices connect to 
electrical distribution systems, these devices create 
additional gateways that hackers can exploit to gain access to 
the grid. These vulnerabilities are exacerbated by the fact 
that Federal cybersecurity standards do not currently apply to 
distribution systems, and are, instead, only mandatory for 
certain power generation and transmission systems.
    Even those mandatory reliability standards that apply to 
electric generation and transmission systems do not fully 
incorporate leading cybersecurity guidance from the National 
Institute of Standards and Technology.
    In addition, many key components of the electrical grid are 
produced, or rely upon parts produced by international 
suppliers. This equipment is vulnerable to tampering or 
espionage by foreign actors. Some of this equipment, especially 
large power transformers, can take over a year to produce, 
transport, and install. Even in an emergency, making the U.S. 
electrical grid heavily dependent on overseas manufacturing.
    Last, but certainly not least, multiple Federal agencies 
and state and local entities, each with its own role, its own 
responsibilities, and its own authorities are all tasked with 
protecting the electrical grid. This creates ample opportunity 
for bureaucratic stovepiping and can undermine the incidence 
response to any events.
    To that end, I look forward to hearing from our witnesses 
about how they are working together in sharing information to 
ensure malign cyber actors cannot slip through the cracks. With 
that, I would like to thank our witnesses for their service and 
for testifying before our subcommittee on this critically 
important issue. And I will now yield to my friend, the ranking 
member from Wisconsin, Mr. Grothman, for five minutes.
    Mr. Grothman. Thank you very much. And thank you for our 
witnesses for showing up today. There's an issue with far-
reaching repercussions, something that scared me for a long 
time. An attack on the energy grid would be devastating for 
Americans and our national security. Hours, even hours without 
power would cause chaos. Extended disruptions could pose 
serious consequences to our national defense. Cyber attacks are 
growing in frequency. Particularly, scary ones from state-
sponsored groups in Russia and China. It would appear to the 
casual observer that these actors are testing us, testing our 
defenses, our response, our reaction.
    Our defense must effectively and efficiently identify and 
disrupt potential attacks. Our response must harness the powers 
of government and the private sector to mitigate the fallout. 
Our reaction must be swift and strong to future attacks.
    Each of you, each of our witnesses plays a vital role in 
the Nation's cyber defense. This hearing is a welcome 
opportunity to hear from all of you, and learn more about how 
our government operates in space, as well as what the fallback 
position is going to be if any of these attacks are effective. 
It's a balancing act between the government authority and the 
operation of private industry. The answer is not more 
unilateral costs of regulations--many more unilateral 
regulations. The answer lies within current authorities 
available to you and, frankly, your ability to work with each 
other. I hope we can hear more about the collaboration today.
    In closing, I would like to say, hopefully, in the future, 
we can take up other security issues, the origin of the COVID, 
the Chinese biological weapons program, dangers of a nuclear 
Iran, a botched Iran deal, and President Biden's border crisis. 
I have been down there four times. I would love a hearing on 
that. It's a huge number of people crossing the border. We're, 
right now, at about 70,000 people a month. What is further 
disturbing is the vast number of illegal immigrants President 
Biden has been releasing in our country, well over 160,000 
between Border Patrol and HHS.
    The committee's held hearings after hearing during the 
Trump administration operating missions with the border. I have 
been down there four times. You would have a blast having a 
hearing on that. I hope, Mr. Chairman, we can work together to 
investigate these issues. I yield back and look forward to our 
witnesses to tell them.
    Mr. Lynch. The gentleman yields back. I have one important 
procedural matter. Without objection, the distinguished member 
from Rhode Island, Mr. Langevin, is recognized and waived on to 
the committee for the purpose of participating and questioning 
these witnesses. Mr. Langevin is a senior member of the House 
Armed Services Committee where he serves as chairman of the 
Subcommittee on Cyber Innovative Technologies and Information 
Systems. Mr. Langevin has led on a number of key pieces of 
legislation related to cybersecurity, including a bill to 
establish a position of National Cyber Director in the White 
House. He is also a commissioner on the Cyberspace Solarium 
Commission, and is a co-chair of the congressional 
Cybersecurity Caucus. So, welcome, Mr. Langevin.
    Now, I would like to welcome our three witnesses. Today we 
are joined by Mr. Puesh Kumar, who is the Acting Principal 
Deputy Assistant Secretary in the Office of Cybersecurity, 
Energy Security, and Emergency Response at the Department of 
Energy. We are also joined by Mr. Eric Goldstein, who is the 
Executive Assistant Director for Cybersecurity at the 
Cybersecurity and Infrastructure Security Agency at the 
Department of Homeland Security. And we are also joined by Mr. 
Joseph McClelland who is the Director of the Office of Energy 
Infrastructure Security at the Federal Energy Regulatory 
Commission.
    So, to all of our witnesses, thank you for your willingness 
to appear and to help the committee with its work. We look 
forward to your testimony.
    It is the custom of the committee to swear our witnesses. 
So, would the witnesses please stand and raise your right hand 
so that we can swear you in.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Let the record show that the witnesses have each answered 
in the affirmative. You may be seated. And thank you. And 
without objection, your written statements will be made part of 
the record.
    With that, Mr. Kumar, you are now recognized for five 
minutes of your summation of your written testimony.

STATEMENT OF PUESH M. KUMAR, ACTING PRINCIPAL DEPUTY ASSISTANT 
   SECRETARY, OFFICE OF CYBERSECURITY, ENERGY SECURITY, AND 
     EMERGENCY RESPONSE, ON BEHALF OF DEPARTMENT OF ENERGY

    Mr. Kumar. Thank you, Chairman Lynch. Chairman Lynch, 
Ranking Member Grothman, and distinguished members of the 
subcommittee, thank you for the opportunity to testify on 
behalf of the Department of Energy to discuss the 
administration's continuing efforts to secure the Nation's 
energy infrastructure, helping to ensure that all Americans may 
rely on a resilient, secure, and clean energy system.
    The energy sector provides critical resources, electricity 
and fuel that we all depend upon. As we recently witnessed with 
the Colonial Pipeline incident and impacts from extreme weather 
in Texas, disruptions to our energy system can have devastating 
impacts to the U.S. economy, and the livelihoods of millions of 
Americans. DOE's Office of Cybersecurity, Energy Security, and 
Energy Response, commonly referred to as CESER, plays a leading 
role in addressing the continuously evolving risks facing the 
energy sector, including the growing cyber threats that pose a 
strategic challenge to the United States.
    Over the past few years, we have all witnessed an increase 
in the frequency and sophistication of attacks by a range of 
actors from cyber criminals to nation-states. As part of the 
Federal Government's coordinated efforts to proactively 
protect, defend, and assist the energy sector with the 
preparedness and response to all hazards, DOE is designated as 
the Sector Risk Management Agency, or the SRMA, for the energy 
sector, and is the coordinating agency for Emergency Support 
Function 12 under the national response framework.
    Through these roles, DOE works across the Federal 
Government. CISA and FERC are certainly on speed dial, as well 
as our partners at the state, local, territorial, and Tribal 
levels.
    Further, we have a strong relationship with the U.S. energy 
sector owners and operators. DOE and DHS serve as co-chairs of 
the Electricity Subsector Coordinating Council and the Oil and 
Natural Gas Subsector Coordinating Council. The Sector 
Coordinating Council structure allows the government, a growing 
state, to work closely with the industry to prepare for and 
respond to national level disasters, or threats, to critical 
infrastructure. Collective preparedness and collective response 
are at the heart of our work.
    With that in mind, there are five priorities that I have 
set for the CESER office to really ensure that we are targeting 
our resources on the critical issues that are facing the U.S. 
energy sector. The first priority is to increase the visibility 
of cyber threats, targeting industrial control systems of 
energy companies. This includes enhancing the government and 
industry's ability to detect and deter cyber threats.
    As you mentioned, Chairman, we just launched the 100-day 
initiative for industrial control systems. And the goal there 
is to really start to get visibility into a part of the energy 
system that we haven't had as much visibility on before. Really 
starting to see the cyber threat actors in that environment and 
be able to quickly collaborate with them.
    The second priority is to identify supply chain threats, 
and disclose vulnerabilities in the energy sector, both in 
their hardware, but also the software and the digital supply 
chain.
    One of the efforts we have underway at CESER right now is a 
program called Cyber Testing for Resilient Industrial Control 
Systems. The idea behind the program as is commonly referred to 
as CyTRICS is to partner with manufacturers and suppliers for 
the most critical components in the energy sector, so that we 
can test for hardware and software vulnerabilities before those 
systems are ever deployed in the energy sector. And we're 
having tremendous success along those lines.
    The third priority is to encourage the concept of security 
by design, and ensuring that cybersecurity is just built into 
the relevant research and development and demonstration across 
DOE and our national laboratories. It should be core component 
of everything we do.
    To that end, we are focused on an effort we call cyber-
informed engineering. The goal is to develop a framework so 
that when we have our engineers designing the next generation 
energy systems, cybersecurity is a core component of those 
early designs so that we're not trying to bolt on cybersecurity 
after the fact, but we're really building it in as a 
requirement to any design that we build in the energy sector in 
the United States.
    The fourth priority is capacity building in the industry 
and the state, local, territorial, and Tribal communities. 
Working to strengthen things like threat information sharing, 
exercising with a sector so we're prepared to respond. And 
also, work force development is another key priority for us. 
And we just released an updated tool for the industry called 
Cybersecurity Capability Maturity Model, C2M2. We just released 
version two last week. The C2M2 model lets companies assess the 
maturity of their cybersecurity programs and make targeted 
investments in their programs going forward.
    And, finally, the fifth priority is to ensure that when an 
incident does occur, regardless of hazard, CESER is ready to 
support the sector, and mitigate impacts and ensure the safe 
and sufficient restoration of the Nation's energy 
infrastructure. We do this through the deep subject matter 
expertise of energy systems across the DOE complex, including 
headquarters, national laboratories, power marketing 
administrations, the Energy Information Administration, and the 
National Nuclear Security Administration. We're able to bring 
the different resources to the table in support of the 
response--in the case of a cyber response and work closely with 
our partners at CISA and FBI to ensure that we can have a 
coordinated response like we did with the Colonial Pipeline 
incident. Thank you for the opportunity to testify. I look 
forward to your questions.
    Mr. Lynch. Thank you. Mr. Goldstein, you are now recognized 
five minutes.

 STATEMENT OF ERIC GOLDSTEIN, EXECUTIVE ASSISTANT DIRECTOR FOR 
   CYBERSECURITY, CYBERSECURITY AND INFRASTRUCTURE SECURITY 
      AGENCY, ON BEHALF OF DEPARTMENT OF HOMELAND SECURITY

    Mr. Goldstein. Thank you. Chairman Lynch, Ranking Member 
Grothman, members----
    Mr. Lynch. Can you turn your mic on?
    Mr. Goldstein. It's on, but I will move it a bit closer.
    Mr. Lynch. OK.
    Mr. Goldstein. It should be better.
    Mr. Lynch. Thank you.
    Mr. Goldstein. Chairman Lynch, Ranking Member Grothman, 
members of the subcommittee, thank you for the chance to 
testify today on behalf of CISA. And thank you for your focus 
on this critical issue and bringing us here to discuss the work 
that we have done so far and the need to make further progress 
in addressing risk to the Nation's energy grid and broader 
critical infrastructure.
    Cyber intrusions targeting organizations across all sectors 
of the economy reflect that is now an urgent threat to our 
national security, economic security, and public health and 
safety. As the lead agency for civilian cybersecurity, CISA 
seeks to actively reduce risks and reduce vulnerabilities 
across critical infrastructure in close partnership with sector 
risk management agencies, like the Department of Energy. In 
this role, we're particularly focused on reducing risk to 
national critical functions. Those services that are so 
essential to the American people that degradation of them would 
lead to debilitating effects on our economy, our security, or 
our ways of life.
    Of course, the energy sector is essential to numerous 
national critical functions. Not only the power itself, but, of 
course, its dependencies: water, telecommunications, the 
ability to move around our communities.
    Through a close partnership with DOE and our private sector 
partners, we seek to improve cybersecurity at a national level. 
And we do this in five principal ways: First, we seek to share 
timely and actionable information across the country with 
partners in the energy sector and across sectors to ensure that 
every organization has the information they need to secure 
their networks against current and emerging threats.
    Second, we provide voluntary services, such as 
vulnerability assessments, red-teaming, penetration tests to 
help organizations understand vulnerabilities in their 
networks, and fix them before an adversary can intrude and 
cause a compromise.
    Third, when an incident does occur, we provide incident 
response and threat-hunting assistance and coordinate the 
national asset response to cybersecurity incidents to mitigate 
the event and bring it to a swift resolution.
    Fourth, we provide active detection tools to help companies 
on a voluntary basis, detect threats on their networks.
    And fifth and finally, we conduct cross-sector analysis to 
understand how a cyber intrusion can cascade across sectors and 
impact national critical functions.
    And as my colleague at DOE noted, we are doing a lot of 
this work today under the auspices of the White House's 100-day 
Control Systems Plan, in which we are focus on improving both 
security practices and the ability to detect threats across 
critical entities in the energy sector.
    Going forward, it's clear that we have more to do. It is 
clear that we must act urgently to address this increasing 
threat to our national security. We are looking to drive this 
progress at CISA in a few ways.
    First, we continue to work urgently on a voluntary basis 
with government and the private sector partners to gain 
visibility into cybersecurity threats and intrusions across the 
country. With this visibility, we are able to disseminate more 
actionable and timely information, we're able to provide more 
tailored response, and we're able to understand the breadth of 
risks affecting entities in this country. We look forward to 
working with Congress on enabling incident reporting 
legislation that will provide CISA with this needed visibility. 
And we're also looking to more broadly deploy our detection 
tool, such as the CyberSentry Program, which allows us to use 
commercial tools and government information to expand 
visibility into risks affecting the Nation's most critical 
infrastructure.
    Additionally, we must continue to mature our voluntary 
partnerships with government in the private sector. We are 
shortly launching our newly renamed joint cyber defense 
collaborative as established in last year's NDAA to formalize 
our work between government and the private sector around 
mitigating and understanding emerging cyber campaigns affecting 
our country.
    And, last, we must recognize that we are not going to, in 
the near term, prevent every cybersecurity intrusion. And we 
must focus on resilience and functional continuity. To this 
end, the Cyber Response and Recovery Fund, an initiative 
recommended by the Cyberspace Solarium Commission, and recently 
passed by the Senate, will significantly help CISA have the 
capacity to help entities respond and recover when damaging 
intrusions occur.
    We know that the problem is severe, and trends are not 
pointing in the right direction. We are doing more, and we must 
act with urgency in managing this threat we are facing. CISA is 
prepared to lead this national effort in coordination with the 
SRMAs, with Federal law enforcement, our partners across this 
country. I will look forward to working with Congress in so 
doing. Thank you again for your time. I look forward to your 
questions.
    Mr. Lynch. Thank you. Mr. McClelland, you are now 
recognized for a five-minute summation for your testimony. 
Thank you.

 STATEMENT OF JOSEPH H. MCCLELLAND, DIRECTOR, OFFICE OF ENERGY 
INFRASTRUCTURE SECURITY, ON BEHALF OF FEDERAL ENERGY REGULATORY 
                           COMMISSION

    Mr. McClelland. Chairman Lynch, Ranking Member Grothman, 
and members of the subcommittee, thank you for the privilege to 
appear before you today to discuss defending the U.S. Electric 
Grid Against Cyber Threats. My name is Joe McClelland. I am the 
Director of the Office of Energy Infrastructure Security at the 
Federal Energy Regulatory Commission. I come before you as a 
commission staff witness, but I should note my remarks do not 
necessarily represent the views of the Commission or any other 
individual commissioner.
    In the Energy Policy Act of 2005, specifically, through 
Section 15 of the Federal Power Act, Congress entrusted the 
Commission to approve and enforce mandatory reliability 
standards for the Nation's bulk power system. Section 215 
requires the Commission to certify an electric reliability 
organization, or ERO, that is responsible for proposing for 
commission review and approval reliability standards, or 
modifications to existing reliability standards to help protect 
and improve the reliability of the Nation's bulk power system.
    The Commission certified the North American Electric 
Reliability Corporation, or NERC as the ERO. By statute, the 
bulk power system does not include electric distribution 
facilities. Section 215 of the Federal Power Act provides for 
stakeholder input into the ERO's development of reliability 
standards for the bulk power system. This process works 
relatively well to develop standards to address traditional 
operations and planning-related reliability events that may 
cause grid failures, or blackouts, such as from improper 
vegetation management, or failures associated with the 
operation of protection equipment. The nature of the national 
security threats from adversaries' intent on attacking our 
Nation's electric grid significantly differ from reliability 
vulnerabilities that have caused regional blackouts and 
reliability failures we have seen in the past. Widespread 
disruption of electric service can quickly undermine the U.S. 
Government, its military, and the economy as well as endanger 
the health and safety of millions of our citizens.
    To help mitigate these advanced persistent and rapidly 
evolving threats, the Commission uses a two-pronged approach 
with regard to grid reliability, employing mandatory 
reliability standards to establish foundational practices, 
while also working collaboratively with industry the states and 
other Federal agencies to identify and promote best practices.
    While the NERC Critical Infrastructure Protection, or CIP 
reliability standards are the foundation of the commission's 
work to address cybersecurity, there are additional measures 
that can and should be taken to further improve the industry's 
cybersecurity posture, considering these rapidly evolving 
threats. That is why the Commission established OEIS. OEIS 
partners with other Federal agencies, states, and industry to 
develop and promote best practices for critical infrastructure 
security. Working with these entities, OEIS helps identify new 
and emerging threats, informs the private sector of them, 
performs voluntary cybersecurity evaluations, and assists with 
mitigating actions.
    For example, OEIS conducts voluntary architecture 
assessments of interested commission jurisdictional utilities' 
computer networks that can control the operations of their 
facilities. Conducted onsite, these assessments are specific to 
the organization, reviewing everything from the configuration 
of legacy equipment to the application of state-of-the-art 
protection systems.
    Another example is that OEIS works with the Office of 
Director of National Intelligence, specifically, the National 
Counterintelligence and Security Center to conduct briefings 
and exchange information with state and industry officials 
about the current threats the industry is facing and what can 
be done to address them.
    More broadly, OEIS works with the NERC Electricity 
Information Sharing and Analysis Center to rapidly issue 
bullets and alerts informing industry of specific 
vulnerabilities and threats, as well as best practices that can 
be used to defend against them.
    As a final example, OEIS assists with the planning and 
execution of tabletop exercises, and participates in joint 
security programs with other government agencies.
    Last month, OEIS assisted the National Guard units 
participating utilities in the New England states to conduct 
Cyber Yankee, a simulated cyber attack on system networks. This 
red-teaming exercise helped the New England utilities and 
National Guard units to prepare for these threats, including 
practicing government assistance to the utilities as part of 
the defense and recovery efforts. Exercises such as these are 
critical to maintaining readiness and ensuring our ability to 
respond to cybersecurity attacks.
    In conclusion, cybersecurity threats pose a serious risk 
being to the bulk power system and its supporting 
infrastructures that serve our Nation. These are complex, 
persistent, and fast-evolving issues, and they won't be solved 
easily, and they will require a great deal of coordination and 
communication. Therefore, the Commission has adopted this two-
pronged approach to best address the important security 
matters. Thank you for your attention and the opportunity to 
testify today. And I look forward to your questions.
    Mr. Lynch. Thank you. I will now recognize myself for five 
minutes for questions. Our adversaries are targeting all facets 
of the American life with frequent and increasingly 
sophisticated cyber attacks. In just the past few months, cyber 
attacks have frozen a major oil pipeline, shut down the world's 
biggest meat producer, and compromised one of the largest email 
servers in the world.
    In a June 6 interview, Secretary of Energy Jennifer 
Granholm said, and I will quote her, ``There are thousands of 
cyber attacks in all aspects of the energy sector.'' And she 
added, ``It's happening all the time.'' Secretary Granholm also 
acknowledged that our adversaries, foreign nations, and 
criminal groups have the cyber capabilities to shut down the 
U.S. electric grid. We know that this threat exists because our 
adversaries have demonstrated it already.
    In 2015, Russian intelligence agents used a sophisticated 
cyber attack to cripple industrial control systems of the 
Ukrainian electrical grid, shutting off power to hundreds of 
thousands of people in the dead of winter. In that case, 
thankfully, power was restored to most consumers in a matter of 
hours.
    However, the message was clear, Russia is willing and able 
to target its adversary's electrical infrastructure. But it's 
not just Russia that we need to worry about--China, Iran, North 
Korea, and numerous sophisticated cyber criminal groups all 
view the U.S. electric grid as a priority target.
    So, Mr. Goldstein, how would you describe the current risk 
of a major cyber incident on the electrical grid in the near 
future? Give me sort of a landscape assessment of where you 
think we are right now, to the best of your ability?
    Mr. Goldstein. Certainly, Mr. Chairman. I think your 
description of the threat environment is apt. I think we have 
an environment today where there are many organizations 
throughout this country and across sectors of critical 
infrastructure that have not universally deployed these sort of 
strong security controls and managed no insecurity weaknesses 
that we know that our adversaries have the technical ability to 
exploit. This puts us in a position where the possibility of a 
highly damaging cybersecurity intrusion affecting a national 
critical function, such as the provision of power to the 
American people, is certainly a possibility.
    Mr. Lynch. Let me ask you, just on that point and this is 
for the entire panel. I doubt very much that we have a single 
point of failure, but as we saw with the Colonial Pipeline, you 
have got some infrastructure that--some pieces of 
infrastructure that are so critical to--in that case, it was 
the East Coast. But is this an assessment that there are 
several points of vulnerability, or geographically speaking?
    And when you say certain entities are not using proper 
cyber hygiene, let's say, is that something that, as Mr. 
McClelland has pointed out, is that a standard that's 
recommended, or is it something that is actually required?
    Mr. Goldstein. Certainly. So, I will defer to my colleagues 
at DOE and at FERC respectively for an assessment on points of 
failure in the grid, as well as on the mechanisms that could be 
utilized through FERC authorities. What I would note is that, 
you know, if all organizations do not urgently focus on 
understanding not only the vulnerabilities in their network 
that exists today, but also on the tactics, techniques, and 
procedures that we are seeing adversaries, whether nation-
states or criminal gangs utilize, and don't urgently invest in 
putting in place controls that meet what we see our adversaries 
doing, then we are at urgent risk of a cybersecurity intrusion 
that could result in degradation of a national critical 
function, of which there are many, but certainly the energy 
sector is one.
    This is why it is so urgent for all organizations to put 
cybersecurity investment at the top of their list recognizing 
that, you know, investments must be weighed against other 
considerations. But at CISA, we are urgently focused on making 
sure that all entities across critical infrastructure are 
focused on putting in place these strong controls and 
mitigating those known vulnerabilities that we know could be 
exploited to cause significant harm.
    Mr. Lynch. I am sorry. Mr. Kumar, Mr. McClelland, could you 
take a whack at that question well.
    Mr. Kumar. Absolutely, sir. Thank you for the question. I 
think that's a really important question, because I truly do 
believe that the cyber challenge is a national security 
challenge that we are facing on a daily basis as you mentioned. 
It becomes even more complex when you think of the electricity 
sector that has over 3,000 electric utilities across the United 
States, and how it's all connected. This becomes even more 
complex and challenging. And, so, we need to be addressing this 
through three different ways. The Department is looking at it 
from three different tracks: One, what are those policies that 
we need to look at? Are those policies in coordination with our 
colleagues at FERC?
    Two, what are tools and technologies that we can put on the 
grid that can detect these threats before they result in 
impacts? We need to continue investing in a lot of that R&D.
    But then, the last one is when it does happen, just like 
with Colonial, how do we respond? Respond swiftly and have the 
backups necessary to immediately recover from a response. We 
are thinking about it from all three perspectives, and we need 
to continue to do more.
    So, we at the Department are certainly working with FERC in 
terms of really understanding the bulk power system. So, how do 
we help the regulators at the Federal level understand the 
threat so that our standards are risk-based? So, as we see the 
threat evolve, so does the standard. We're doing the same thing 
with the states. So, the jurisdiction of regulatory standards 
through the distribution systems are in the hands of states.
    And, so, our approach at the Department is to work with the 
public utility commissions and the public service commissions 
at the state level to ensure that they, No. 1, understand the 
threat. As my colleague, Joe, mentioned what we're trying to do 
is help them understand the threat at both the unclassified and 
classified level to inform how they work with their utilities 
at the state level.
    The second thing is often the state, or the states, don't 
have the resources to actually make these informed decisions in 
terms of how much a cybersecurity investment is appropriate. 
So, what we have been doing is developing tools. So, the tool 
that I just mentioned, C2M2, Cybersecurity Capability Maturity 
Model. The utility is used to decide on investments in 
cybersecurity. We are providing a similar version of that tool 
to the states to use to gauge the cybersecurity of the 
utilities within their state. And, so, we need to do this 
three-pronged approach to continue pushing cybersecurity 
forward, sir.
    Mr. Lynch. Great. Mr. McClelland.
    Mr. McClelland. I refer to a couple of quick quotes on the 
annual threat assessment. This was issued on April 9 of 2021. 
``We continue to assess that China can launch cyber attacks 
that, at a minimum, can cause localized temporary disruption to 
critical infrastructure within the United States.''
    Regarding Russia, Russia continues to target critical 
infrastructure, including underground, underwater cables, and 
industrial control systems in the United States, and in its 
allied countries. As compromising such infrastructure improves, 
and, in some cases, can demonstrate its ability to damage 
infrastructure during a crisis.
    And then, last, I just refer you to the task force on cyber 
deterrence. This was in 2017. And this is just a precursor to 
your answer. So first, major powers, Russia and China, have a 
significant and growing ability to hold U.S. critical 
infrastructure at risk via cyber attack. This emerging 
situation threatens to place the United States in an untenable 
position. Although progress is being made to reduce the 
pervasive cyber vulnerabilities of U.S. critical 
infrastructure, the unfortunate reality is at least for the 
next decade, the offense of cyber capabilities of the most 
capable adversaries are likely to far exceed the United States' 
ability to defend key critical infrastructures.
    So, back to my statement, my opening statement, FERC uses a 
dualfold approach. If you imagine two geometric shapes, a 
pyramid, foundationally, that's where we put the cybersecurity 
standards. These standards are developed in the open, and 
they're deliberative, and they're iterative. Our adversaries 
are capable of reading the standards and adapting those 
standards, even before they are put into place, which is spoken 
to by our intelligence community assessments.
    However, at the apex of the pyramid, that's where the 
nation-state threats lie. It's a matter of information sharing 
between the agencies and between the industry to make certain 
that they can address these threats. And those threats really--
sorry. I am sorry. I see the time.
    Mr. Lynch. Yes, thank you. The chair now recognizes the 
Ranking Member Mr. Grothman for five minutes for questions.
    Mr. Grothman. Thank you. Kind of what you said there, Mr. 
McClelland, is kind of a little bit scary. So, you feel today 
that our grid is vulnerable, and most people probably think it 
is, but you think it's significantly vulnerable to cyber 
attack?
    Mr. McClelland. I would say that the worldwide threat 
assessment from DNI--the current threat assessment certain of 
our adversaries have the capability to target and disrupt these 
services.
    Mr. Grothman. OK. I think our cyber posture is three parts: 
it's defense, it's response, and reaction. If there were a 
successful attack on a significant part of the United States, 
do we have a fallback position? Or how we quickly do you think 
we could get back our grid?
    Mr. McClelland. I think that depends on the attack. You 
know, was infrastructure simply interrupted? Were their 
services interrupted? For instance, was it a denial of service 
attack? Or were the adversaries able to gain access to the 
networks, and, particularly, the operational technology 
networks, and at that point, damage or destroy equipment that's 
necessary to operate the power grid?
    Mr. Grothman. That's kind of the question. If they damage 
equipment, do we have fallback position here? Would we have to 
build something new? I mean, what would happen if part of the 
grid you picked in that part of the United States is destroyed 
or disabled, how long would you be able to--before be able to 
get the grid up and going again?
    Mr. McClelland. Well, the industry does operate to an N-
minus-1 contingency, which means it can suffer the single 
largest contingency on the grid and continue operations. So, it 
can continue to provide power if it loses the single largest 
contingency. If there are multiple contingencies, those can 
result in prolonged outages. And those outages depend on the 
extent of damage to the equipment and the availability of that 
equipment.
    Mr. Grothman. OK. So, you feel one attack, we always have a 
backup, and more than that, we could have big trouble?
    Mr. McClelland. I am sorry. Would you repeat?
    Mr. Grothman. Do you feel we have enough to handle one 
attack without being a disaster, but if we have more than one, 
we have huge trouble? Is that accurate?
    Mr. McClelland. If it's beyond the N-minus-1 contingency, 
then the power grid service can be interrupted. That is 
correct.
    Mr. Grothman. Mr. Goldstein, do you agree with that, or do 
you want to comment on the same question?
    Mr. Goldstein. Sir, I will defer to my colleagues at the 
American DOE for their assessment. I will be resilient of the 
grid itself.
    Mr. Grothman. OK. Mr. Kumar.
    Mr. Kumar. Thank you for the question, sir. So, there's 
both the benefit and a concern when you have 3,000 electric 
utilities in the United States. The concern is certainly the 
complex nature of how it is all connected, and how we need to 
ensure that the cybersecurity posture across the board is 
raised up. But that complexity is also--it's a resiliency. 
Because of the different types of networks that are set up 
across the different utilities, what you can also have is some 
sort of resiliency built in because it's not going to be able 
to go--traverse from one utility to the next as easily.
    With that said, to answer your question more specifically, 
you know, the concern that I have is more focused around supply 
chain threats. It is much like we saw with SolarWinds, where it 
took one supplier that was across 16,000 organizations. That's 
the threat that I am concerned about, and that's where I am 
focused on is what are those critical components, critical 
manufacturers and suppliers that are across the energy sector? 
And if they are impacted, then they can actually be the attack 
vector into these utilities. So, that's where a lot of my 
concern is right now in terms of addressing the supply chain 
threat, sir.
    Mr. Grothman. Do you feel we have enough defense right now 
to prevent that or no?
    Mr. Kumar. In terms of--the perspective we have is, 
currently the assessment that my colleague from FERC mentioned 
is we think that there is the capability to have a temporary 
and localized disruption to energy supply per the DNI's 
assessment. But in terms of the resiliency, I do think the 
sector does have resiliency built in, N minus one criteria that 
Joe mentioned is really important.
    But in terms what we do right now is we practice the 
response. So, if this were to happen, how do we get either a 
spare transfer in, or another piece of equipment quickly in? 
So, that's something that we are constantly doing with the 
sector in terms of preparing for that type of incident.
    Mr. Grothman. I understand you might not be able to speak 
to this, but I want it on the record. It's important we don't 
let malign actors get away with these actions, especially if 
they are affiliated with nation-states like Russia or China. If 
something happened like you were describing, how quickly do you 
think we would be able to--say, one utility had huge problems, 
how quickly do you think we would be able to get the grid in 
that area or that factory up and running again?
    Mr. Kumar. Sir, thank you for that question. It's a complex 
problem. It really depends on the type of attack vector. Is it 
a piece of software that's critically used? Is it a piece of 
hardware? And that's going to factor into how we respond as a 
government to really respond to this type of incident. 
Unfortunately, there isn't a great answer until you start to 
see it.
    Now, with the SolarWinds type of incident, what we're 
focusing on is working with the GEs, the ABBs, the large 
industrial control system manufacturers, to ensure that there 
is backups and redundancy built into these systems so that we 
can go to a backup plan. And so, that is an area that we have 
been working with the sector on, and the concept is called 
spare tire. Can we go to a manual mode if we can't rely on our 
digital systems?
    Mr. Grothman. It seems to me that private companies, if 
there were not threat of attack, would not invest as much as 
they have to if there was an attack, right? If seems the 
question is for good of society as all, we need a fallback 
position. Do you think there's some role for government there 
or not?
    Mr. Kumar. Sir, I appreciate the question. I feel like 
government does have a role in terms of really working with the 
sector to bolster the defenses. This is why we launched the 
Industrial Control Systems Initiative because we really need to 
start looking at cyber adversaries in those critical systems, 
and then be able to correlate that information from our end. We 
want to correlate it with our colleagues at CISA from a cross-
sector perspective, and then we want to correlate it with our 
intelligence community, so we can get a feedback loop back to 
the sector. And we need to continue pushing on this and 
incentivizing cybersecurity across the board.
    Mr. Grothman. I would like to thank the chair for his 
generosity.
    Mr. Lynch. Absolutely. The gentleman yields back. The chair 
recognizes the gentleman from Vermont, Mr. Welch, for five 
minutes.
    Mr. Welch. Thank you. Thank you, Mr. Chairman. I want to 
thank the witnesses, too. The National Institute of Standards 
and Technology cybersecurity framework includes guidance and 
best practices that are, of course, widely regarded as 
foundational elements.
    Mr. McClelland, why do the North American Electric 
Reliability Corporation Standards not fully integrate the NIST 
cybersecurity framework?
    Mr. McClelland. Thank you for the question. In August 2019, 
GAO submitted a report to Congress comparing the NERC CIP 
standards to the NIST framework. In that report, GAO concluded 
that the CIP standards did not cover some of the NIST framework 
requirements. In response to that report, FERC staff began an 
investigation to benchmark the NERC CIP standards against the 
GAO framework.
    It's important to note right at the onset that the two 
bodies don't necessarily compare equally. And just a few 
examples, the NERC CIP standards focus, specifically, on 
operational technologies necessary to ensure operations to the 
bulk power system, where the NIST framework focuses on both IT 
information technology and OT operational technology. The NERC 
CIP standards do not necessarily reflect best practices. 
They're foundational standards, and they're foundational 
practices, but----
    Mr. Welch. What do we have to do in order to get to a place 
where we have some confidence that we'll be able to resist 
these attacks?
    Mr. McClelland. So FERC, after the analysis, FERC did issue 
notice of inquiry. It was in June 2020.
    Mr. Welch. Right.
    Mr. McClelland. It, specifically, identified categories of 
function to the industry for open comment, asking whether or 
not the NERC CIP standards could improve in comparison to the 
NIST framework.
    Mr. Welch. So, what do you think? Do you believe the gaps 
in the current reliability standards do present a risk to the 
bulk electrical system?
    Mr. McClelland. The comments were received. I just need to 
finish that quickly.
    Mr. Welch. I'm sorry.
    Mr. McClelland. So, in September, we received comments. Now 
it's the subject of an ongoing proceeding. So, I can't speak 
any further about it. But I can tell you that the matter is 
under active consideration by the Commission, having received 
comments from any interested party and comparing the NERC CIP 
standards to the NIST framework.
    Mr. Welch. The bottom line, though, is that we really got 
to get some resolution on that in order to have a higher degree 
of confidence that we can resist the cyber attack, right?
    Mr. McClelland. Again, I just cannot comment on an ongoing 
proceeding. I couldn't give any perspective on that proceeding. 
I am sorry, sir.
    Mr. Welch. All right. Let me ask this: On the NERC 
reliability standard, as I understand it, they're only 
mandatory for bulk power systems of over 1,500 megawatts of 
power. And there's some possibility that there could be a 
number of attacks that are on separate systems, but the 
aggregate can well be over 1,500 megawatts. And we don't have 
the information about how we would resist that attack. Does 
FERC now have any information? And has the agency assessed the 
impact of a cyber attack on geographically dispersed power 
systems?
    Mr. McClelland. Yes, FERC is--that's another matter that is 
under active consideration at FERC. Again, it's the content of 
an internal deliberation, so I can't speak to it. But it is an 
important aspect, and FERC has identified that as such.
    Mr. Welch. So, where do we need to be to improve our 
confidence about our capacity to protect the grid? I mean, we 
got to get to the bottom of these questions, right?
    Mr. McClelland. Right. And these are subjects of active 
proceedings at FERC.
    Mr. Welch. All right. Well, thank you very much, gentleman.
    Mr. McClelland. Thank you.
    Mr. Welch. I yield back.
    Mr. Lynch. I'm just--I'm a little bit frustrated that we 
can't get at these answers because we have a proceeding 
elsewhere. What's the nature of your--the privilege that you're 
claiming here?
    Mr. McClelland. As an active proceeding, one that's under 
deliberation, as a staff member, I cannot comment on the merits 
and the timing of that active proceeding. And this isn't----
    Mr. Lynch. I don't think he was asking you about a certain 
proceeding. He was asking you about how to protect the power 
grid for the country.
    Mr. McClelland. It was in comparison, for instance, to the 
NERC--I am sorry, Mr. Chairman. Mr. Chairman, it was in 
comparing the NERC CIP standards to the NIST framework. And 
this is an active proceeding at the Commission. It's under 
deliberation.
    Mr. Lynch. So, if we went into classified session, would 
you be able to discuss it then?
    Mr. McClelland. I could not, Mr. Chairman. Because the 
content and timing of a deliberation at FERC cannot be 
disclosed.
    Mr. Lynch. OK. We're going to have to have you back then. 
The chair recognizes the gentleman--I apologize to the 
gentleman that it was not fruitful.
    Mr. Welch. No, you better stated my puzzlement, and I 
appreciate that.
    Mr. Lynch. Oh. Absolutely. The chair now recognizes the 
gentleman from Arizona, Mr. Gosar, for five minutes.
    Mr. Gosar. Thank you, Mr. Chairman. As you are aware, the 
administration released 100-day plan in April to address 
cybersecurity shortcomings within our electric grid. The plan 
tapped the Department of Energy as the lead for its 
implementation rather than the Cybersecurity and Infrastructure 
Security Agency, or CISA. Some experts like Damon Small, 
technical director for security consulting at NCC Group North 
America, has pointed out that while the current plan takes a 
generation and transmission of bulk power into consideration, 
it fails to consider distribution. Original equipment 
manufacturers, or OEMs that supply industrial control systems, 
should be a part of that conversation as well.
    Joe M. Weiss, a noted control systems cybersecurity expert, 
argues that the real danger to the grid does not lie in the 
networks, but rather in the industrial controllers and the 
hardware, like the transformers and turbines. And that the 
electric grid is vulnerable to electronic triggers buried in 
bulk, power equipment that is predominantly sourced from China.
    Contributing to this danger, engineers who manage the 
industrial control systems used to be responsible for their 
cybersecurity, but now has surrendered that function to 
computer engineers, why it is argued that these systems are 
vulnerable for being disrupted by bad actors without the normal 
IT alerts being founded.
    The Chinese Government is installing a back door and a 
large transformer destined for our substation in Colorado. And 
a SolarWind attack is proof of the supply chain attacks that 
were not detected by IT network monitoring our threat 
intelligence. This needs to be our focus.
    Mr. Kumar, what percentage of the U.S. energy grid includes 
components manufactured overseas?
    Mr. Kumar. Sir, thank you for the question. And 
understanding the supply chain of our critical energy systems 
is very important to us. To that end, the President issued an 
executive order really focused on America supply chains. And 
one of the key components of that is looking at those critical 
components, like transformers, as you rightfully noted, that 
are so critical to the reliability of our electric grid, and 
where are we manufacturing a lot of those components? And one 
of the key things that we have seen with large power 
transformers, as--sir, you certainly recognize, as we don't 
manufacture the large power transformers in the United States 
anymore. And that is a huge gap that we have as a country.
    And so that is something that we're certainly going to be 
looking at in terms of where we are producing a lot of these 
critical, critical components on the U.S.--in the U.S. energy 
sector as part of some of that report.
    Mr. Gosar. So, to answer my question, zero are made here in 
the United States? They're in foreign countries, right?
    Mr. Kumar. So, when you talk about large power 
transformers, today, large power transformers are built abroad. 
You are absolutely right.
    Mr. Gosar. Thank you. So, was it necessary for the Biden 
administration to suspend President Trump's EO restricting the 
procurement of foreign electric equipment? Couldn't Secretary 
Granholm have been reviewed the executive order without 
suspending it? Mr. Kumar?
    Mr. Kumar. Thank you for that question, sir. Again, the 
supply chain security is of the most is a critical component of 
our energy sector, as I mentioned during my----
    Mr. Gosar. I understand, but isn't it--well, it wouldn't be 
plausible, much better off that the Secretary didn't suspend 
President Trump's initiative, because it would have helped us 
along this pathway?
    Mr. Kumar. Sir, what we found was we got feedback from the 
private sector that they were looking for additional 
clarification. So, one of the things that we have done is we 
want to take a more holistic approach.
    One of the other things that we took into account was we 
had SolarWinds happen last year. SolarWinds really changed how 
we're thinking about supply chain threats across the board. 
And, so, what we wanted to do was have consistent policy that 
actually helped move the ball forward. And, so, this pause in 
that policy allowed us to seek input from the private sector, 
interagency, and others to really develop a stronger policy 
related to supply chain security. So, that's where we're 
focused. And we just received input through our RFI process. 
And we're in the process of reviewing all of the RFIs so that 
we can come back with a stronger approach. And I would be happy 
to followup with you on that, sir.
    Mr. Gosar. Yes, so, I guess my point in time here is, is 
that no we're suspending a lot of the necessary supply chains 
here in this country that can be manufactured, whether it be 
electronic pieces, whether it be the rare earths and copper 
manufacturing process pieces for these transformers and in 
these big aspects.
    So, I mean, it seems like we're in a negative transfer 
abyss. That is, we're chasing our tail around and around and 
around. We don't have the supply chains. We don't have the 
critical elements to build them. We don't have the 
manufacturing to build them. This is a complex issue. And time 
is of the essence. And it doesn't seem like we're going to be 
getting anywhere quick unless we fast-track this. Is that your 
understanding?
    Mr. Kumar. Sir, so in the interim, where we have been 
focusing all of our efforts is working with manufacturers 
directly. So, we just signed partnerships with ABB, Hitachi, 
Schneider, and Schweitzer. And they have come on board with DOE 
to test pieces of their equipment. Because reality is, a lot of 
this equipment, whether it's hardware or software is sourced 
globally. And so what we really need to get to is really 
working with the manufacturers and suppliers to actually 
engineer out a lot of the cybersecurity concerns.
    So, we actually have had a lot of positive success with 
those manufacturers to ensure that we can actually test their 
equipment down to the chip level, and down to the firmer level. 
So, we have had a lot of success on that. And we're going to 
continue to do that, and we look forward to participation by 
some of those other manufacturers to come to the table, whether 
they're manufacturers of large power transformers, or SCADA 
equipment, or relays. Those critical components, we want to 
partner with them. We want to help them really ensure that they 
know the pedigree of their software and hardware before this 
equipment ever gets deployed on our electric grid.
    Mr. Gosar. And one more last question, Mr. Chairman. So, 
what other agencies are we working with, or are we siloing 
this? It seems like this is a very complex issue that 
transcends in different agencies. So, isn't there a great 
process here to work functionally with all the agencies to have 
a cohesive, well-planned, thoughtful process?
    Mr. Kumar. Thank you for raising that. I think it's one of 
the reasons that the sector risk management agency structure 
works so well in this country. Because what happens is, if 
we're focused on something from an energy perspective, we want 
to ensure that our partners at CISA are aware of those 
vulnerabilities and threats, because we want them to be looking 
at them across the board. We want them to be looking at 
chemical industrial control systems and industrial control 
systems in other sectors. So, we partner very closely with our 
colleagues at CISA.
    In fact, last year, actually earlier this year, we released 
a really critical vulnerability in relays that was being used 
in a specific manufacturer. And how we released it was in close 
coordination with our partners at CISA to get the word out 
there, once we had worked with the manufacturer to find a 
patch.
    So, you are absolutely right that we need to be working 
collaboratively, and that's how we do it with CISA. But we're 
also working with our colleagues at FERC to help inform their 
process. And then, of course, we work with the intelligence 
community because we want them to know where are the threats, 
where are risks in these groups of proponents so they can help 
us through their own missions to really help us address these 
risks.
    Mr. Gosar. Thank you, Mr. Kumar. And I yield back, Mr. 
Chairman. Thanks for your indulgence.
    Mr. Lynch. The gentleman yields back. Just a clarification 
on the gentleman's question and your answer. The large 
transformer manufacturers who are no longer operating within 
the United States, are they U.S. companies, or are they foreign 
companies?
    Mr. Kumar. Sir, it's a mixed bag in terms of----

    Mr. Lynch. So, we do have U.S. manufacturers that are 
manufacturing large transformers overseas?
    Mr. Kumar. So we have, for example, ABB, Hitachi.
    Mr. Lynch. Yes.
    Mr. Kumar. They're producing more of the medium voltage 
transformers in the United States right now. And so there are 
some manufacturers that are making transformers in the United 
States, they are just not the large power transformers. And so 
one of the things we would like to do is partner with them to 
really encourage a lot of this domestic manufacturing of those 
transformers. But there are other transformers that are being 
built by other countries out there as well, and I would be 
happy to followup with you with the list of those companies.
    Mr. Lynch. All right. Thank you. Thank you very much.
    The chair now recognizes the gentlelady from California, 
Ms. Speier, for five minutes. Welcome.
    Ms. Speier. Thank you, Mr. Chairman.
    Let me ask Mr. Kumar to begin. Since 85 percent of our U.S. 
electrical grid relies on parts and equipment from overseas, I 
mean, it's prime to be somehow manipulated or compromised as a 
result. And I know FERC has approved a new supply chain risk 
management reliability, but I don't know if it goes far enough.
    So, first of all, let me ask you, Mr. Kumar, are you also 
working with the NSA and their interface with their corporate 
entities outside of the intelligence community?
    Mr. Kumar. Congresswoman, absolutely. We want to take a 
whole-of-government approach. These challenges, particularly 
when it comes to supply chain challenges, are too great. We 
have to be leveraging the authorities, the capabilities, and 
the expertise across the government. And so we're absolutely 
working on the intelligence side with our colleagues. In the 
broader intelligence community, NSA is certainly included. But 
also in terms of protecting critical infrastructure, this is 
where we need to be partnering with other agencies, such as 
CISA, who helps us all be connected in these efforts as we look 
at our supply chain.
    I do want to raise up an issue you mentioned, I think it's 
an important one, and that's looking at a lot of our components 
and particularly just new components that we're putting onto 
the grid. This is where we think it's of the utmost important 
to employ a philosophy in the United States of security by 
design, and the concept is we really need to be looking at the 
next generation systems.
    So, to that end, what we have done is we've collaborated 
with DOE's Office of Energy Efficiency and Renewable Energy as 
we start to look at wind turbines, solar panels, nuclear 
generation, and, of course, fossil energy. How do we ensure 
that the R&D being done on those systems has cybersecurity 
embedded into it? So, this is a mandate that the Secretary, 
Secretary Granholm, has asked CESER to lead across the board, 
that cyber is a core component of everything that the 
Department does, through the R&D at headquarters but through 
our national laboratories as well.
    Ms. Speier. Thank you.
    Mr. Goldstein, can you tell us about the programs that CISA 
has undertaken to warn critical infrastructure owners and 
operators about risks specific to foreign-produced equipment 
and software?
    Mr. Goldstein. Certainly. Thank you for that question. As 
my colleague at DOE noted, CISA really focuses on understanding 
broad cross-sector risks to the Nation's critical 
infrastructure in close collaboration with the SRMAs that bring 
unique sectoral expertise for entities within their purview.
    At CISA, we manage the Information and Communications 
Technology Supply Chain Risk Management Task Force, which is a 
public-private body intended to bring together the producers 
and developers of much of the platform technologies that we see 
ubiquitously utilized across sectors in order to understand the 
risks posed by certain technologies and also, most critically, 
to drive best practices to reduce supply chain risk throughout 
the life cycle.
    Ms. Speier. So here--excuse me. Here's my question, though. 
You can have the wherewithal to provide this support and 
information to these many operators around the country, but if 
they either don't know about it or don't avail themselves of 
it, they become that much more vulnerable to foreign attacks. 
So, what are you doing to somehow lure them into a discussion 
and a training that will provide them that kind of information?
    And then, second, have you created a list of banned 
foreign-produced equipment and software that is known to pose a 
threat to the U.S. critical infrastructure cybersecurity?
    Mr. Goldstein. Certainly. As to the first question, our 
hope is that luring is not required. Our hope is that by 
communicating effectively with critical infrastructure across 
this country through the multiple information sharing groups 
that CISA administers in coordination with the SRMAs and our 
other partners in government, we are able to share timely and 
actionable information about vulnerable hardware and software 
that may need to either be mitigated or replaced.
    And our focus here really is on the vulnerabilities as 
opposed to the foreign providence in the first instance. And by 
sharing information about vulnerable technology assets, that 
then enables an infrastructure owner-operator to take concrete 
steps to address a particular risk in their environment.
    To your second question, ma'am, there is not currently a 
list maintained by CISA of banned technology assets for 
critical infrastructure. It does bear noting that Congress 
recently created the FASC, which is an interagency body 
intended to assess the risk of foreign-produced vulnerable 
devices in Federal networks and has the authority to issue 
exclusion orders for those assets. That body is active now, and 
presumably an exclusion order issued by the FASC could be taken 
up by sectors across critical infrastructure or by sectoral 
regulators.
    Ms. Speier. All right. Thank you.
    Let me just conclude by urging all of you to recognize that 
we are the last to respond more often than not. Huawei was 
operational in this country for over 10 years before we finally 
got the message that they shouldn't be allowed to do so. ZTE is 
yet another example. We are very late in doing what we should 
do early on, and I just hope that you recognize your 
responsibility to act swiftly when there is either known or 
suspected foreign intrusions and/or equipment that poses a 
problem to us.
    With that, Mr. Chairman, I yield back.
    Mr. Lynch. The gentlelady yields back.
    The chair now recognizes the gentleman from Georgia, Mr. 
Johnson, for five minutes.
    Mr. Johnson. Thank you, Mr. Chairman, and thank you for 
holding this very important hearing.
    And if I can pull my questions up here.
    OK. It was not long ago that a cyber attack on Colonial 
Pipeline, a company located not far from my district, disrupted 
the lives of millions and threatened our economy. This was just 
one of the many recent attacks which have raised serious 
concerns about America's ability to defend its critical 
infrastructure and economy from cyber threats. But these 
attacks have also presented opportunities to learn and to 
harden our defenses.
    One lesson is crystal clear: Information sharing between 
the government and the private sector is absolutely essential 
to defending our Nation against cyber attacks. This is 
absolutely true for electric utilities, and for this process to 
work, private utility companies must quickly and fully disclose 
any cyber intrusions on their systems to the Federal 
Government.
    Mr. McClelland, I understand that under current NERC 
reliability standards, electric utilities are required to 
report certain cyber incidents to the Federal Government. Is 
that correct?
    Mr. McClelland. That is correct, Representative.
    Mr. Johnson. And can you describe for me the types of 
incidents that must be reported and why utilities are not 
required to report all incidents?
    Mr. McClelland. The attacks--as I understand the 
requirements, the standard, the attacks require the utilities, 
the applicable utilities to report either successful cyber 
intrusions or cyber incidents that may not have constituted a 
cyber intrusion but they were threats to the utility system.
    Mr. Johnson. How effective has this requirement proved to 
be in practice?
    Mr. McClelland. The requirement is relatively new. I'm not 
familiar with the results, but I'd be happy to take that as a 
question for the record and provide a followup answer for you.
    Mr. Johnson. Well, thank you. I appreciate that.
    And to all of the witnesses, does the government have data 
on incidents that go unreported?
    Mr. Goldstein. Thank you, Congressman. It's a great and 
important question, and the answer is we don't have enough 
data. We know that there are still across sectors a number of 
intrusions today that are not reported to the U.S. Government, 
either to CISA, to an SRMA, or to Federal law enforcement, and 
this presents a few problems.
    First, it precludes the government, including CISA, from 
offering assistance to the victim. It limits our ability to 
develop actionable information that could be used to protect 
other victims before similar events occur, and it limits our 
ability to understand the extent of national risk, for example, 
adversary campaigns that are emerging across sectors of the 
economy.
    As you may be aware, CISA recently worked with TSA to 
establish a security directive requiring reporting of incidents 
affecting certain pipelines to CISA, but even so, this sector-
by-sector approach may in itself not reach the breadth of 
reporting that the U.S. Government needs to understand national 
risks.
    And for that reason, we very much look forward to working 
with Congress to ensure that there's incident reporting 
legislation passed into law that would provide the breadth of 
reporting needed to understand and manage these significant 
threats.
    Mr. Johnson. Well, Mr. Goldstein what mechanisms does the 
government have to enforce these reporting requirements? How 
often are they used and how effective are they?
    Mr. Goldstein. I'm very sorry.
    Mr. Johnson. Do I need to repeat that question?
    Mr. Goldstein. Yes, sir. If you wouldn't mind, that would 
be great. I appreciate it.
    Mr. Johnson. OK. What mechanism does the government have to 
enforce these reporting requirements? And how often are they 
used and how effective are these enforcement requirements, 
enforcement mechanisms?
    Mr. Goldstein. Got it. Thank you, sir. It's a great 
question.
    So, one challenge today is there is no blanket reporting 
requirement for businesses or critical infrastructure in this 
country. Instead, these reporting requirements are generally 
sectoral and enforced by the unique authorities of a given 
regulator. And so, for example, the enforcement authorities 
that FERC may be able to levy would be dramatically different 
than the TSA or the Federal Reserve Board. And so absent a 
common reporting regime and a common mechanism of enforcement, 
it is difficult to assess the efficacy and to ensure that the 
breadth of reporting is coming in to CISA and thereby to our 
partner agencies.
    Mr. Johnson. Thank you, Mr. Goldstein.
    From CISA's perspective, are the current NERC reporting 
standards comprehensive enough or do we need additional 
mandatory reporting requirements for electrical utilities?
    Mr. Goldstein. So over--as a broad question, there are two 
challenges with reporting requirements today. The first is, 
because they have developed sector by sector, they have 
divergent requirements, for example, the definition of an 
incident, as well as the timeframe for reporting and the 
content of a report. And then, as we've discussed, the fact 
that they are currently sectoral means that they are incomplete 
and do not cover the breadth of organizations that should be 
reporting to the Federal Government when they have an intrusion 
that could impact the sort of national critical function that 
we care so much about.
    Certainly, the existing NERC standards, as my colleague 
noted, are fairly new. Our understanding is that they do 
provide the necessary degree of data and that reporting does 
come to CISA as defined in the regulation, but, of course, you 
know, there may be other aspects of the energy grid for which 
additional reporting would be beneficial to help the U.S. 
Government understand the breadth of risks, which is a 
commonality that we see across sectors.
    Mr. Johnson. Mr. Goldstein, should electrical utilities be 
obligated to give CISA access to systems to conduct forensic 
analysis in the wake of an attack?
    Mr. Goldstein. Thank you, Congressman. Our perspective is 
that it is critically important for the U.S. Government to have 
access to information about cybersecurity intrusion subsequent 
to a security incident. This allows us to glean information 
that we can use to protect others. It also allows us to 
understand if the intrusion is correlated to, for example, a 
nation-state campaign that's affecting multiple sectors.
    One way of enabling that information is by providing CISA 
with the ability to conduct incident response or threat hunting 
services for a victim. That is a service that we are ready, 
willing, and frequently provide. But it is also the case that 
if a victim organization chooses to bring in one of the many 
highly qualified commercial incident response firms, that is 
perfectly reasonable as well. The key part is that CISA then 
gets information from that incident response that we can use to 
do our job and protect others.
    Mr. Johnson. Thank you.
    Any additional authorities necessary to respond to and 
deter any cyber attacks?
    Mr. Goldstein. Thank you, Congressman. So, I think we've 
discussed here the main one, which is broader requirements for 
incident reporting for significant cybersecurity incidents 
across this country. That will go a long way toward helping, 
not only CISA, but our partners at the SRMAs and Federal law 
enforcement understand the breadth of cybersecurity risks we 
are seeing and take urgent action response.
    Mr. Johnson. Thank you.
    Mr. Chairman, I believe my time has expired, and I 
appreciate the additional time.
    Mr. Lynch. OK. The gentleman yields back.
    Let me just ask, to followup on the gentleman's question. 
In my district, we had a couple of incidents where a gas line 
inadvertently released gas into the general community. We had 
the FBI come in. I didn't have them come in, but they came in 
pursuant to the pipeline operator's request.
    Would the FBI be a--would they have a data base, or would 
they be a repository of some of these incident reports if they 
are called in to investigate?
    Mr. Goldstein. So, we work extraordinarily closely with the 
FBI every day. We conduct joint incident response together. We 
notify victims together. You know, our general rule as a 
government is a call to one is a call to all, and I think that 
actually now works very well in practice. But even the FBI, 
even given their breadth of personnel in the field offices 
across the country, still has certainly insufficient visibility 
into cybersecurity intrusions. And so some entities today call 
CISA, some call the FBI, some may call an SRMA.
    You know, we need a cohesive approach to this problem as a 
country that is going to ensure that we actually understand the 
nature of the threat we are seeing, we understand how our 
adversaries are breaking into networks across critical 
infrastructure, we are helping to prevent similar attacks 
before they occur, and we are understanding the potential 
impacts of critical functions before they manifest and result 
in service disruptions that could harm the American people.
    Mr. Lynch. OK. Thank you.
    The chair now recognizes the distinguished gentleman from 
Rhode Island, Mr. Langevin, for five minutes.
    Mr. Langevin. Thank you, Mr. Chairman.
    First, I want to thank you for the accommodation allowing 
me to waive on to the committee for the purpose of asking 
questions at the hearing, and I want to thank you for your 
leadership on cybersecurity. I know how serious you take this 
issue, and we appreciate the leadership of these gentlemen and 
the work that we have been able to collaborate on together.
    Likewise, I would like to thank the panel for their 
testimony this afternoon, the work that you're doing to try to 
protect the Nation against cyber threats, especially those of 
significant consequence.
    That said, Mr. Kumar, I just wanted to followup on a line 
of questioning. You talked about the different power generation 
piece of equipment, some that are produced here, others, the 
larger ones, that are produced overseas, if I understood all of 
that correctly. And given the fact that these are not like 
batteries that sit on a shelf and you just, you know, pop one 
in and out easily if something becomes disabled, and 
understanding the Aurora threat, where for the first time back 
in 2007 saw how a cyber attack through a data intrusion could 
cause physical damage to a turbine, would not it be wise to 
have a, say, industry strategic national stockpile of 
additional power generation equipment of a certain number that, 
were a turbine or series of turbines be destroyed, that we 
would have the ability to reconstitute quickly as opposed to 
these things take months to build, ship, and install, and not 
having some on hand? Have we done any of that? Are we thinking 
about it in those terms?
    Mr. Kumar. Thank you for the question, sir. So, the 
Department did do research in this case. We looked at whether a 
strategic transformer reserve made sense in the country. So, we 
actually did a series of reports, and we worked very closely 
with our industry partners to really look at what are the 
challenges when it comes to bringing in these critical pieces 
of equipment, as you rightfully identified. And so what we 
found through a lot of that reporting was we should be thinking 
about strategic transformers and the sharing of transformers.
    And so to that end, since writing some of these reports, 
the industry itself has set up three different programs in the 
electricity industry to really share transformers during an 
emergency. It's Grid Assurance, SpareConnect, and the STEP 
program. These programs allow one utility to share a 
transformer with another utility. Grid Assurance goes a step 
further. It actually goes beyond just transformers. It's 
looking at relays and other critical equipment.
    So, our hope is, as we start to identify these critical 
pieces of equipment, particularly ones perhaps that are long 
lead kind of equipment, how do we inform that back to the 
private sector so they can continue developing these mechanisms 
to have these types of reserves.
    The government's role, another portion that we feel like we 
need to address and help with is these large power transformers 
are 200 to 300 tons, and what we often find is the logistics of 
moving a transformer at 20 miles an hour, maybe less, across 
from one part of the country to the other is a huge challenge 
of moving such a large piece of equipment. So, the focus we've 
had is working with our colleagues at the Department of 
Transportation, of course the states, to really understand the 
logistics of moving these large power transformers from point A 
to point B.
    The other piece that I referenced earlier, sir, is that we 
need to really look at domestic manufacturing. How do we 
incentivize some of that domestic manufacturing of these 
critical components in the United States? I know that is a key 
focus of Secretary Granholm as we start to develop this report 
regarding America's supply chains, and so there's going to be 
more to come on that.
    Mr. Langevin. Thank you. I think it's an important issue to 
address.
    Director Goldstein, thank you for being here. As you know, 
I'm a big proponent of the Joint Cyber Planning Office 
currently being stood up at CISA, and I think the JCPO will be 
critical for bringing the interagency, including the Department 
of Energy and the private sector, together to coordinate 
planning and exercises to protect critical infrastructure like 
the grid.
    So, Director Goldstein, can you give us a status update on 
JCPO? In addition, how do you view the planning and exercise 
function of the office fitting in with other operations and 
analytics functions carried out by CISA?
    Mr. Goldstein. Thank you for the question, sir. And as 
always, thank you for your work on behalf of our national 
cybersecurity mission. We are deeply grateful every day for it.
    We continue to make progress in implementing critical 
function which, as you note, is going to be foundational to our 
ability to prioritize, plan for, exercise, and then execute 
coordinated cyber defense operations with government and the 
private sector. We are preparing now for our initial launch of 
the organization, which will involve multiple private sector 
companies as well as our partners across the interagency, and 
we intend for that work to be really a pilot for what this 
effort will be able to do when it scales forward.
    The way that I would think about this for broader 
integration is this will be our effort to, in the first 
instance, understand what are the most significant risks that 
we care about managing as a national cybersecurity community, 
with CISA, of course, at the helm for civilian cyber defense; 
how do we develop plans jointly with the interagency and with 
industry to understand how we mitigate the plans----
    [Audio interruption.]
    Mr. Lynch. Someone's got a live mic. We ask all members to 
mute.
    Mr. Goldstein. Thank you, sir. My apologies.
    Mr. Lynch. Thank you. You may proceed.
    Mr. Goldstein. Thank you.
    Once we have our list of prioritized risks, develop joint 
plans with government and the private sector, exercise those 
plans in the same joint manner between industry and the private 
sector, and then when a risk manifests, execute those plans to 
ensure that we are taking collective action to mitigate risks 
to entities that could be harmed.
    So, if we think about layering this in with our existing 
model for cyber defense operations, you know, we could envision 
a planning sprint focused on certain risks through the energy 
sector, where we would ensure that CISA's asset response 
capabilities, DOE's expertise as the SRMA, and then our 
partners in industry, but not just industry in the energy 
sector, but cross-sector entities in the private sector, are 
all coming together saying, when the bad day that we've 
discussed today occurs, how do we take joint action to ensure 
not only that we're minimizing the impacts to the energy sector 
but we are understanding and proactively addressing cross-
sector impacts; bringing together team members from government 
and the private sector to do this work, both in person and via 
our analytics platform that we are developing for joint 
collaboration, in coordination with the interagency and our 
partners across industry.
    So, this really will be the formalization of CISA's 
critical role in leading civilian cyber defense for the 
country, but it's a role that we can't do alone and requires 
the robust collaboration from day one with the SMRAs, with our 
other partners, including Federal law enforcement and the 
intelligence community, and perhaps most critically, the 
private sector who, of course, are going to be the executors of 
so much critical work to mitigating the risk.
    Mr. Langevin. Thank you very much.
    Mr. Chairman, I had two additional questions, but I could 
submit those for the record.
    Mr. Lynch. You can fire away, Jim, if you want.
    Mr. Langevin. OK. Thanks, Mr. Chairman.
    So, Director Goldstein, last year's NDAA also required us 
to develop a Continuity of the Economy plan. So, this plan will 
govern how we respond to and recover from a significant 
disruption to our economy, thinking of in terms of what to 
prioritize first if the bad day happens and what do we need to 
get up and running first to keep our economy on track, you 
know, one perhaps epitomized by a cyber attack on the power 
system.
    So, our intent in drafting this provision was that CISA, 
including the cybersecurity division and the National Risk 
Management Center, would play a key role in drafting the 
report. Can you give me an update on where things stand with 
the Continuity of the Economy plan?
    Mr. Goldstein. Excellent. So, certainly, we share your 
focus about the need to robustly consider and plan for 
Continuity of the Economy under all conditions. I think it is 
symbatic underlining much of what we discussed today. I 
understand that the administration is still considering the 
appropriate way to implement that provision in the NDAA, but 
certainly I recognize the urgency and importance of this kind 
of work and would be glad to get you an update for the record 
on progress in making that decision.
    Mr. Langevin. Thank you.
    I really do hope to see movement from the White House study 
on this. Maybe even the actual cyber director can take the 
reigns. And I hope this subcommittee, Mr. Chairman, will keep 
on this issue as well.
    The last question I had, Director Goldstein, we've also 
discussed the report required by section 9002 of last year's 
NDAA in Sector Risk Management Agencies, or SRMAs. As you know, 
the report was due July 1. Though I appreciate Director 
Easterly was only recently confirmed and might need some time 
to review it, our goal, with the clarification of the roles and 
responsibilities of SRMAs, was to empower them to fulfill their 
jobs, while also ensuring CISA gets the support it needs, 
whether in terms of risk data or incident response 
coordination.
    How do you see, Director, the relationship between DOE and 
CISA evolving in light of section 9002 and the forthcoming 
report?
    Mr. Goldstein. Absolutely. So, we are urgently working on 
the report, and we appreciate the patience, as we make sure 
that we get it right, because, as you know, this is critically 
important work that really is foundational for delineation of 
not just roles but also resources, capabilities across agencies 
in managing this, a significant risk.
    CISA and DOE have an extraordinarily close relationship. 
You know, in general, CISA sees ourself--and I should speak to 
the mission element of CISA, because CISA, of course, is also 
an SRMA for multiple sectors. But the mission delivery portion 
of CISA in cybersecurity that I'm privileged to lead, we see 
ourselves as a service provider to sectors to give them 
actionable information, cybersecurity services, incident 
response assistance upon request, and understanding cross-
sector dependencies that could affect the provision of sectoral 
functions and, thereby, cause impacts to the American people.
    DOE, of course, has extraordinary expertise, as we've 
offered today, on understanding both nuance dependencies and 
relationships within the sector, the nature in which a 
cybersecurity intrusion could impact sector entities, and the 
ability uniquely to actually understand productivity that is 
manifesting in the sector.
    And so our goal working with our partners in DOE is first 
and foremost to make sure that we are robustly sharing 
information so that the cross-sector information that CISA has, 
including information, of course, from Federal civilian 
networks, we are sharing with our partners at DOE, we are 
sharing with our partners in the energy sector, so that when we 
are seeing a threat manifesting in the Federal Government or a 
different sector, it can be used to protect partners across the 
energy grid.
    Additionally, as my colleague, Mr. Kumar, has discussed 
today, DOE is engaged in a variety of activities focused on 
understanding supply chain risks, resilience issues within the 
energy sector. That is all work that CISA is executing at a 
cross-sector model to understand risks across the board. And so 
the more that CISA and DOE can work together on ensuring that 
lessons we are learning from the energy sector can be 
generalized broadly and ensuring that we are providing 
cybersecurity services to the energy sector in deep 
coordination with DOE, the sector will be stronger but, more 
importantly, we will be stronger as a Nation.
    Mr. Langevin. Thank you.
    Mr. Chairman, thank you very much for the generosity and 
the time, and I yield back.
    Mr. Lynch. The gentleman yields back.
    Mr. Kumar, just to clarify on your answer to Mr. Langevin, 
Chairman Langevin, he asked you about these very large 
transformers. As a former ironworker, I've had the opportunity 
to try to move some of those transformers. It is a traffic-
stopping operation. I appreciate the difficulty. But I think 
the wider question is about redundancy. And so, we don't have 
to move transformers around in order to get them online.
    Is there--so rather than looking at it from an inventory 
situation where we have transformers that can be brought in, 
what about redundancy where we have capabilities or the 
capacity that can be brought online for very, very important 
national security purposes, especially here in the D.C. area? I 
mean, where do we stand on that in terms of redundancy that 
might be brought online in the event that one of these large 
generating facilities gets taken down?
    Mr. Kumar. Sir, thank you for that question. It's--really 
the concept of resiliency and redundancy are really core to how 
we're thinking about these problems. We first must understand 
the risk to the sector and then start to build some of that 
resiliency and redundancy into it, so that if you do have a 
situation, as you mentioned, with a transformer going down, how 
do we ensure we still have those critical functions, those 
critical facilities, like military installations that continue 
to serve power to those installations.
    So, what we're looking at is we're really looking at an 
all-of-the-above strategy. One of the options that we're 
thinking about is what's the role of solar, wind, energy 
storage, nuclear generation that can be brought in to actually 
create a microgrid and actually develop resilience into cities 
and states and, in particular, serve the critical facilities, 
like military installations.
    So, we really need to build in that resilience into the 
grid so that if we do--if we are impacted by an incident, we 
can have another source of generation to continue having us 
going forward. So, that's how we're really thinking about this 
problem broadly.
    Mr. Lynch. Thank you.
    The chair now recognizes the very patient gentlelady from 
Florida, Ms. Wasserman Schultz, for five minutes.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    Mr. Chairman, according to a March 2021 GAO report, 
electrical distribution systems, the systems responsible for 
delivering our electricity from transmission lines to consumers 
and businesses across America, quote, faced significant 
cybersecurity risks. And as more and more homes, businesses, 
and smart devices are connected to electrical distribution 
systems, the exposure and complexity of these systems grows, 
rendering them, quote, increasingly vulnerable to cyber 
attacks.
    The electricity in many large cities across the United 
States is provided by a single distribution utility. If a 
distribution utility servicing a major city like New York or 
Miami were to be the victim of a cyber attack, the consequences 
could be devastating. In fact, GAO found that--and I quote--
even if a cyber attack on the grid's distribution system did 
not impact the bulk power system, such an attack could still 
have significant national consequences.
    Yet, despite this, distribution utilities are not subject 
to any Federal cybersecurity regulations. The NERC reliability 
standards apply only to electrical generation and transmission 
systems, while distribution systems are regulated at the state 
and local level.
    Mr. Kumar, given the growing cyber threats to distribution 
systems, do you think there should be mandatory Federal 
cybersecurity standards for electrical distribution systems?
    Mr. Kumar. Thank you for the question, Congresswoman. This 
is certainly an increasing and complex threat. As you 
rightfully talked about, we are integrating more and more, 
whether it's distributed energy resources, we're connected 
more, and it's all happening at the distribution level. And so 
what we are focused on, we, as DOE, do not have the regulatory 
authority in terms of the distribution system. I would 
certainly defer to my colleague at FERC regarding regulatory 
authorities. But where we're focused is the states do have 
regulatory authority over the utilities at the distribution 
level.
    And so where we've been focusing our efforts on really 
educating the state public utility commissions about the 
threat, No. 1; then, No. 2, providing them with the tools that 
they can use to then look at the cybersecurity investments of 
the utilities at the distribution level within their cities, 
states, and communities.
    And so that's where we're focusing a lot of our efforts is 
to really help those states who have the ultimate regulatory 
authority to do more in that space.
    We also offer a tool called C2M2 that is applied to 
distribution, transmission, and generation facilities. Any 
utility of any size can use this tool to gauge its 
cybersecurity posture today, and they can actually see where 
they land in terms of their cybersecurity posture and then make 
the necessary investments to their cybersecurity using these 
tools that we provide to the states.
    Ms. Wasserman Schultz. OK. And I would like to hear what 
Mr. Goldstein thinks.
    Mr. Goldstein. So, as a general point--and thank you for 
that question, ma'am. I do appreciate it.
    As a general point, efforts that we can take as a country 
to drive adoption of better security controls would lead to 
improvements to our national security, economic security, 
public health and safety. There are a number of roads that we 
can take to that outcome, and I would defer to the sectoral 
expertise of my colleagues at DOE and FERC to consider which 
incentives are most appropriate for distribution entities. But, 
in general, we know that we need to take steps to catalyze 
urgent investment in better security. Certainly, regulation and 
standards is one path to that end. There may be other 
incentives that could also enable the same investment.
    And I would just note one example. You know, there are 
certainly bills proposed in Congress that would enable broader 
cybersecurity grants that is also an additional method to 
catalyze more cybersecurity investment and certainly one that 
CISA supports. And so the end state that we seek is better 
security. I think given the nuances of a given sector and even 
given entities within a sector, the particular package of 
incentives to reach that goal may differ.
    Ms. Wasserman Schultz. OK. And continuing in the same risk 
category, despite growing cyber risks to electrical 
distribution systems, GAO also found in its March 2021 report 
that DOE's current cybersecurity strategy for the electric grid 
does not fully address risks to distribution systems. DOE 
officials have argued that the Department is prioritizing the 
security of the bulk power system, asserting that a cyber 
attack on a distribution system would likely be, quote, less 
significant than an attack on the bulk power system.
    However, GAO also found that DOE has not conducted any up-
to-date assessment of the impacts of a cyber attack on 
distribution systems or whether such an attack could affect the 
wider bulk power system.
    Mr. Kumar, how can DOE be sure that an attack on one or 
more electrical distribution systems would be relatively 
insignificant if it has not studied the likelihood and 
potential impacts of such an attack? And will you commit to 
conducting an updated assessment of the potential scale and 
impacts of an attack on electrical distribution systems and 
report your findings back to Congress?
    Mr. Kumar. Congresswoman, I appreciate the question. We are 
absolutely focused on the distribution system. I've read the 
GAO report, and we are taking actions today to really look at 
the distribution system.
    One of the key things that we're doing today is we've 
partnered with our Energy Efficiency and Renewable Office and 
our Office of Electricity to really think about the 
distribution systems and how do we embed security by design 
into those next generation systems at the distribution level.
    We're also working with our state PUCs, as I mentioned, and 
the goal here is really understand the threats. And what we 
find is there may be a mismatch in understanding what the 
threat is so that we can then inform requirements.
    At a very basic level, you know, we are encouraging things 
like the NIST cybersecurity framework that Congressman Welch 
had mentioned. We think that's a great tool to actually look at 
your cybersecurity posture as a utility, whether you're a 
distribution utility or a transmission utility.
    Ms. Wasserman Schultz. Well, I mean, I appreciate your 
commitment to looking at the GAO report, and once you do that, 
will you commit to conducting an updated assessment of the 
potential scale and impacts of an attack on electrical 
distribution systems and report your findings back to Congress?
    Mr. Kumar. We can do that, ma'am.
    Ms. Wasserman Schultz. Thank you.
    And, Mr. Chairman, I guess, if you don't mind, 30 more 
seconds.
    Mr. Lynch. Of course.
    Ms. Wasserman Schultz. Thank you.
    Distribution systems are the systems on which Americans 
rely to bring electricity to their homes and businesses, 
because I know that's not terminology I'm familiar with, so 
providing a definition is pretty important. You know, those are 
the systems that light our streets and run our trains.
    In Florida, we actually experienced a close call earlier 
this year when hackers breached the computer system operating a 
water treatment plant and boosted chemicals to dangerous 
levels. And now, luckily, a human operator was able to 
intervene before any damage was done. But this frightening 
attack demonstrates the damage that can be done if a malignant 
actor wants to impact public safety.
    So, it's critically important for DOE to conduct a 
cybersecurity assessment of our electrical distribution systems 
so we can address any persistent vulnerabilities before they 
can be exploited and people can be harmed. So, I appreciate the 
opportunity to talk about that at this hearing.
    I yield back.
    Mr. Lynch. The gentlelady yields back. Her points are well 
taken. Thank you.
    As we close, I would like to recognize the gentleman from 
Wisconsin for any concluding remarks.
    Mr. Grothman. Yes. I'd like to thank you for having this 
hearing. You know, we didn't have a huge turnout here, and it's 
the type of hearing that I guess is kind of boring, except for 
all of a sudden it was the most important hearing we ever had 
if something disastrous would happen sometime in the next year.
    Is it OK if I ask Mr. Kumar just one more question?
    What you said kind of concerned me. It concerns me in a 
wide variety of places the things we don't make in this 
country, but I wondered if you'd share with us where the large 
transformers are made. And if we were subject to a cyber 
attack, is there anything we would need to repair the damage 
that is not made in this country?
    Mr. Kumar. Sure. Thank you for that question. I can take 
that back in terms of where the large power transformers are 
made and provide that back to you in terms of a QFR, if that 
works for you, sir.
    Mr. Grothman. That's fine and wonderful.
    OK. Again, I'd like to thank you for being here. And I've 
often felt that this sort of thing is such a very important 
issue, and it's never going to be in the paper until some 
disaster happens and then people say, where was Congress. So, 
thanks for having it and maybe----
    Mr. Gosar. Glenn? Glenn, would you yield? This is 
Congressman Gosar.
    Mr. Grothman. Sure.
    Mr. Gosar. Mr. Chair, one of the things--I know it says 
cybersecurity is the issue today, but what about when a foreign 
actor owns the utility that accesses the grid? I mean, I'm 
thinking about a lot of these solar fields that are operated by 
foreign actors. And what oversight do we have for them? Because 
you could actually have a systemic shutdown from within the 
owned grid system because of that access. Have we ever 
considered any of that, Mr. Chairman?
    Mr. Lynch. I'd refer that question to our witnesses.
    Mr. Goldstein. Certainly. Thank you for the question, sir.
    So, there are certainly processes in place. I would call 
out the Committee on Foreign Investment in the United States, 
or CFIUS, that is intended just for this purpose, to assess the 
national security risk of foreign investment in critical 
infrastructure or other assets that could be critical to 
national security, economic security, et cetera. I certainly 
cannot speak to foreign investment in any particular energy 
entity or utility, but the U.S. Government does have structures 
in place to evaluate this sort of foreign investment and bar 
acquisitions or put conditions thereupon if national security 
risks are identified.
    Mr. Gosar. That's if they're identified, right?
    Mr. Goldstein. I'm sorry, would you remind repeating that?
    Mr. Gosar. Yes. That's if they're identified. If they run 
under the radar, I mean--I mean, it depends a lot on the state 
oversight, if I'm not mistaken, right?
    Mr. Goldstein. So, in general, it is certainly the case 
that risks would need to be identified as a part of the 
assessment process. There are processes in place to assess, to 
identify foreign acquisitions. There are reporting requirements 
thereof, and there are processes that are administered on an 
ongoing basis to assess the risks posed by such acquisitions, 
and, again, preclude acquisitions or put conditions thereupon 
if such risks are deemed dilatory to national security.
    Mr. Gosar. I will followup with some questions to find out 
that systematic oversight. Thank you.
    Thank you, Mr. Chairman. And thanks, Glenn.
    Mr. Lynch. The gentleman yields back.
    Mr. Grothman. That said, maybe sometime we can do something 
in the future on this, maybe in a more secure location, but 
thanks again for having the hearing.
    Mr. Lynch. I thank the gentleman.
    Before we close, I have a quick housekeeping matter. I'd 
like to ask unanimous consent to enter into the record a 
written statement submitted by the American Public Power 
Association and the National Rural Electric Cooperative 
Association.
    So, without objection, so ordered.
    Mr. Lynch. I think at this point our witnesses have 
suffered enough. So, in closing, I want to thank our panelists 
for their remarks. I want to commend my colleagues for their 
participation in the important conversation that we have had 
about the vulnerability of our electrical grid.
    With that, without objection, all members will have five 
legislative days within which to submit additional written 
questions. And I know there are some questions outstanding that 
we've had commitments during the hearing. But in any event, all 
members will have five legislative days within which to submit 
additional written questions for the witnesses through the 
chair which will be then forwarded again to the witnesses for 
their response, and I ask our witnesses to please respond as 
promptly as you are able.
    And, with that, this hearing is now adjourned.
    [Whereupon, at 4:53 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
